March 31, 2003

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:      Audit Report – Postal Service’s Arrangement with a Preferred Provider
              Organization (Audit Report Number HK-AR-03-001)

This report is the first in a series of reports we plan to issue on selected aspects of the
Postal Service’s Arrangement with a Preferred Provider Organization (Project
Number 03YN003HK000). The report presents the results of our review, which was
self-initiated and included in our fiscal year 2003 Audit Workload Plan. Our objective
was to determine whether the Postal Service used proper contracting practices in its
arrangement with the preferred provider organization.

Our audit revealed that the Postal Service did not use proper contracting practices in its
arrangement with the preferred provider organization. However, as a result of our audit,
the Postal Service is taking action to modify its contract with the preferred provider
organization. We provided five recommendations to Postal Service management.
Management agreed with all five recommendations, but did not agree with our finding or
with other aspects of the report. Management agreed that the $75,000 in contract
funding should be deobligated and actions were taken to deobligate those funds.
However, management disagreed with our plan to classify the deobligated funds as
funds that could be put to better use. We disagree with management’s assessment
since our classification is consistent with the definitions contained in the Inspector
General Act. We do not plan to pursue this issue through the formal audit resolution
process. Management’s comments and our evaluations of these comments are
included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Erica Blackman,
director, Health Care, at (703) 248-2100 or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Business

Attachment

cc: Richard J. Strasser, Jr.
    Sylvester Black
    Ronald E. Henderson
    James J. Rowan, Jr.
    Susan M. Duchek
Postal Service’s Arrangement with a                               HK-AR-03-001
 Preferred Provider Organization




                                      TABLE OF CONTENTS

Executive Summary                                                     i

Part I

Introduction                                                          1

   Background                                                         1
   Objective, Scope, and Methodology                                  3
   Prior Audit Coverage                                               3

Part II

Audit Results                                                         4

   Contracting Practices                                              4
       Documentation of Noncompetitive Award                          4
       Unfavorable Provisions                                         5
       Negotiation Documentation                                      6
       Documentation of Cost and Pricing Data                         7
       Postal Service Standard Clauses and
        Other Contract Provisions                                     7
       Contract Funds                                                 9
   Recommendations                                                    9
   Management’s Comments                                             10
   Evaluation of Management’s Comments                               10

Appendix. Management’s Comments                                      12




                                         Restricted Information
Postal Service’s Arrangement with a                                                 HK-AR-03-001
 Preferred Provider Organization


                                      EXECUTIVE SUMMARY
 Introduction                  On March 1, 2001, the Postal Service entered into a
                               contract with a preferred provider organization to provide
                               managed care services. The 2-year contract, which was set
                               to expire on February 28, 2003, was designed to help the
                               Postal Service achieve annual medical cost savings in its
                               injury compensation program. The preferred provider
                               organization estimated medical cost savings approximating
                               $30 million from this contract. This self-initiated audit is the
                               first in a series of reports on the Postal Service’s contract
                               with the preferred provider organization. The overall
                               objective of this audit was to determine whether the Postal
                               Service used proper contracting practices in its arrangement
                               with the preferred provider organization.

 Results in Brief              Our audit revealed that Postal Service officials did not use
                               appropriate contracting practices in its arrangement with the
                               preferred provider organization. For example, we found that
                               required contract documentation was lacking, the contract
                               contained provisions that were unfavorable to the Postal
                               Service, and the contract lacked standard Postal Service
                               clauses and provisions. As a result, this contract exposed
                               the Postal Service to unnecessary risks from legal claims,
                               protests, adjustments, and contract termination. Moreover,
                               the former contracting officer did not timely deobligate
                               $75,000 for contract services not used.

                               In response to our audit, the current contracting officer has
                               been actively working to revise the contract to ensure that
                               the Postal Service receives maximum benefit and
                               protections. Those efforts include negotiations with the
                               preferred provider organization to refine the contract’s terms
                               and conditions. Although the current contracting officer has
                               initiated corrective action to revise the contract, those
                               actions have not been finalized. The contract, which was
                               set to expire on February 28, 2003 has been extended to
                               allow negotiations to completely revise the contract.




                                                    i
                                         Restricted Information
Postal Service’s Arrangement with a                                                HK-AR-03-001
 Preferred Provider Organization




 Summary of                    We recommended management instruct the contracting
 Recommendations               officer to continue efforts to develop contract documentation
                               including negotiations, justification for noncompetitive
                               purchases, and cost analysis. For future actions on this
                               contract, we recommended that all noncompetitive purchase
                               requests be developed and have written approval prior to
                               submission to Supply Management. In addition,
                               management should negotiate with the contractor to modify
                               the contract to include appropriate standard contract
                               clauses and delete clauses that restrict the Postal Service.
                               Finally, the Postal Service should renegotiate the contract to
                               increase its percentage of medical cost savings.

 Summary of                    Management agreed, in effect, with all five of the reported
 Management’s                  recommendations, but did not agree with our finding or with
 Comments                      certain other aspects of the report. Management disagreed
                               with the classification of the contract as being a “sole source
                               contract” and considered the contract to be a low value
                               “noncompetitive contract.” Even though management
                               stated that the contractor’s share might exceed $10 million
                               in the future, management considered the contract to be
                               valued at only $75,000, and noted that the amount fell within
                               the former contracting officer’s approval authority.
                               Management also disagreed that the former contracting
                               officer’s actions left the Postal Service vulnerable to claims
                               and protests. However, in contrast, management stated
                               that even though the future contract will be issued at no
                               cost, the current contracting officer plans to obtain the vice
                               president, Supply Management, approval since the contract
                               is of significant interest and importance to the Postal
                               Service.

                               Management also disagreed and stated that the Purchasing
                               Manual policy pertaining to anticompetitive provisions was
                               taken out of its proper context. As per management,
                               anticompetitive practices typically occur between suppliers
                               who include schemes to deprive the Postal Service of the
                               benefits of competition. Consequently, the provision
                               included in the contract was not unusual, particularly for a
                               pilot program, and for indefinite delivery contracts,
                               provisions of this nature are included.

                               Management disagreed and stated that because of the
                               nature of the requirement, the contracting officer would


                                                  ii
                                       Restricted Information
Postal Service’s Arrangement with a                                                HK-AR-03-001
 Preferred Provider Organization


                               typically use price analysis methods versus cost and pricing
                               data to determine that the deal was fair and reasonable for
                               both the contractor and the Postal Service. Management
                               also expressed concerns that the depiction of the actions
                               taken by the former contracting officer on her last day of
                               employment were not entirely above board and requested
                               removal of those statements from the report. Finally, even
                               though management agreed that the $75,000 in contract
                               funding, which was obligated in fiscal year (FY) 2001,
                               should be deobligated, management disagreed that those
                               funds be classified as funds that could be put to better use
                               in future Office of Inspector General (OIG) reports to
                               Congress.

                               Management did agree that negotiation discussions should
                               normally be documented in the contract file. Management
                               also agreed with the intent of the report’s section that Postal
                               Service clauses and provisions be included in this type of
                               contract. Management’s comments, in their entirety, are
                               included in the appendix of this report.

 Overall Evaluation of         We evaluated management’s comments to the five reported
 Management’s                  recommendations and found that management actions were
 Comments                      responsive to each of our recommendations. In addition,
                               we acknowledge the clarifications management provided in
                               their comments and have revised statements in the report,
                               as we deemed necessary. However, we take exception to
                               management’s comments to the finding and discussions of
                               report details. Specifically, we do not agree with
                               management’s opinion regarding the value of the contract.
                               Further, we strongly support the report’s assertions
                               regarding the lack of documentation for the noncompetitive
                               award as well as the Postal Service’s acceptance of
                               unfavorable contract provisions. Without adequate
                               documentation and the use of Postal Service terms and
                               provisions, protections cannot be assured. Finally, we
                               continue to support the classification of the $75,000 in
                               deobligated funds as funds that could have been put to
                               better use.

                               The value of the contract stemmed from an unsolicited
                               proposal that was designed to help the Postal Service
                               achieve annual medical cost savings of $30 million.
                               Although management stated that the contractor’s future
                               share might exceed $10 million, management still



                                                 iii
                                       Restricted Information
Postal Service’s Arrangement with a                                                        HK-AR-03-001
 Preferred Provider Organization


                                      considered the contract to be valued at only $75,000. It is
                                      not logical that the contract could potentially save millions
                                      and yet be valued at such a low amount. Postal Service
                                      management cannot have it both ways. Specifically, the
                                      $75,000 in contract funding was never the real value of the
                                      contract. The value of the contract resided in the
                                      contractors’ ability to generate millions of dollars in medical
                                      cost savings.1

                                      Further, the former contracting officer did not develop
                                      adequate contract file documentation to support contract
                                      actions associated with the noncompetitive award or for
                                      contract actions that should have been followed when
                                      Postal Service management accepted the contractor’s
                                      unsolicited proposal. Along with a proper determination of
                                      contract value, the Purchasing Manual, Issue 1, provides
                                      specific actions that must be followed when a
                                      noncompetitive contract is awarded or an unsolicited
                                      proposal is accepted.

                                      In addition, the unfavorable contract provisions addressed in
                                      the report were allowed because the former contracting
                                      officer accepted the contractor’s written statement of work.
                                      That written statement of work became the contract that is
                                      discussed in this report. In essence, the contractor
                                      unilaterally developed the anticompetitive provisions and the
                                      resulting restrictive language was accepted by the Postal
                                      Service when the former contracting officer used the
                                      contractor’s statement of work as the contract. Without
                                      adequate documentation and the inclusion of specific Postal
                                      Service terms and provisions, protections cannot be
                                      assured.

                                      Finally, the $75,000 contract option represented funds that
                                      were not executed or used in this contract. As a result of
                                      the audit, the OIG requested that the $75,000 obligation
                                      made in FY 2001 be deobligated and the Postal Service
                                      deobligated the funds in January 2003. Therefore, we
                                      continue to support the classification of the $75,000 in
                                      deobligated funds as funds that could have been put to
                                      better use. Further, although Postal Service management
                                      disagreed that the funds be classified as funds that could be
                                      put to better use, we disagree with management’s

1
    The OIG plans to comment on the valuation of contracts in future reports.



                                                           iv
                                                 Restricted Information
Postal Service’s Arrangement with a                                            HK-AR-03-001
 Preferred Provider Organization


                               assessment. Our classification is consistent with the
                               definitions contained in the Inspector General Act.
                               However, we are not planning to pursue this issue through
                               the formal audit resolution process.




                                                  v
                                       Restricted Information
Postal Service’s Arrangement with a                                                                 HK-AR-03-001
 Preferred Provider Organization


                                            INTRODUCTION
    Background                     Medical costs associated with injured Postal Service
                                   employees have been increasing in an accelerated and
                                   uncontrolled manner. In fiscal year (FY) 1998, medical
                                   costs were $189 million and subsequently escalated to
                                   $308 million as of FY 2002, which represents an increase of
                                   63 percent.2 During a shorter period from FYs 2000 through
                                   2002, the Postal Service sustained net operating losses. To
                                   minimize the impact of increasing medical costs on its
                                   operating position, the Postal Service has worked to identify
                                   ways to reduce or control the impact of those costs. In
                                   April 2000, representatives from the preferred provider
                                   organization (the contractor) submitted an unsolicited
                                   proposal to reduce medical costs associated with injured
                                   Postal Service employees. The unsolicited proposal
                                   provided no direct or extra costs to the Postal Service.

                                   On March 1, 2001, the Postal Service entered into a 2-year
                                   contract, which was set to expire on February 28, 20033, to
                                   test a program to provide managed care services, through
                                   the contractor’s network, to Postal Service employees with
                                   job-related injuries. The purpose of the test program was to
                                   substantially slow rapidly increasing medical costs incurred
                                   by the Postal Service. The contractor projected medical
                                   cost savings from taking advantage of the contractor’s
                                   network of fee schedule discounts, which were negotiated
                                   by the contractor with its providers. These discounts were
                                   presumed to be lower than fee schedule4 amounts paid by
                                   the Department of Labor, Office of Workers’ Compensation
                                   Programs. The contractor estimated the Postal Service’s
                                   portion of medical cost savings to be as high as $30 million
                                   annually when the test program was fully implemented.

                                   The medical cost savings were to be achieved from
                                   submitting all medical bills to the contractor before those
                                   bills were submitted to the Department of Labor, Office of
                                   Workers’ Compensation Programs for payment. From the
                                   medical bill submissions, the contractor would identify
                                   providers who belonged to their network. After medical bills

2
  This is equivalent to a 13 percent average annual growth rate.
3
  The contract, which was set to expire on February 28, 2003 has been extended to allow negotiations to completely
revise the contract.
4
  The Federal Employees Compensation Act fee schedule, Title 20, Code of Federal Regulations Part 10, is used by
the Department of Labor, Office of Workers’ Compensation Programs, to reimburse providers of medical services.



                                                        1
                                             Restricted Information
Postal Service’s Arrangement with a                                                         HK-AR-03-001
 Preferred Provider Organization


                                      were submitted, the Department of Labor, Office of Workers’
                                      Compensation Programs, processed the bills and issued a
                                      check to the contractor. Upon check receipt, the contractor
                                      applied their fee schedule discount, issued a check to their
                                      network provider, retained their fee, and, on a quarterly
                                      basis, remitted the net savings to the Postal Service.

                                      The contract term from March 1, 2001, through February 28,
                                      2003, included the following supplements:5

                                           •   Supplement A - Medical Review Programs.
                                           •   Supplement B - Office of Workers’ Compensation
                                                              Programs.
                                           •   Supplement C - Postal Contract Clinic Program
                                                              Services.

                                      Funding for contract supplements was as follows:

                                           •   For Supplement A, no fee schedule amounts were
                                               established in the contract. However, if the contract
                                               action for Supplement A were extended, then
                                               Supplement B fees to the contractor would be
                                               increased by 3.1 percent.

                                           •   For Supplement B, from March 1, 2001, through
                                               August 31, 2002, the fee to the contractor for their
                                               share of medical cost savings was 32.7 percent.
                                               From September 1, 2002, through February 28,
                                               2003, the fee to the contractor for their share of
                                               medical cost savings was 30.9 percent.

                                           •   For Supplement C, additional funding was
                                               established in the amount of $75,000 to process first
                                               aid injury claims.

                                      The contract also included two modifications, the first of
                                      which expanded the number of states submitting medical
                                      bills to the Department of Labor, Office of Workers’
                                      Compensation Programs. The second modification
                                      expanded the program nationwide and changed the
                                      Supplemental B fee provided the contractor to 60 percent
                                      retroactive from the March 1, 2001, program inception date.
                                      Consequently, the second modification reduced the Postal

5
    Contract supplements provide specific contract services and fees for those services.



                                                            2
                                                 Restricted Information
Postal Service’s Arrangement with a                                                                   HK-AR-03-001
 Preferred Provider Organization


                                   Service’s share of medical cost savings from the previous
                                   67.3 and 69.1 percent, respectively, to 40 percent.6

    Objective, Scope, and          The objective of this audit was to determine whether the
    Methodology                    Postal Service used proper contracting practices in its
                                   arrangement with the contractor.

                                   To accomplish our objective, we reviewed Postal Service
                                   purchasing policies and procedures. We also reviewed
                                   contract files and other contract proposals similar to this
                                   one. Further, we interviewed Postal Service officials,
                                   including representatives for the vice president, Supply
                                   Management, as well as contractors, program, and
                                   procurement personnel.

                                   Our audit was conducted from November 2002 through
                                   March 2003 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as were considered necessary under the
                                   circumstances. We discussed our conclusions and
                                   observations with appropriate management officials and
                                   included their comments, where appropriate.

    Prior Audit Coverage           We found no prior Office of Inspector General (OIG) audits
                                   of this contractor. However, in our audit report on Confirm
                                   (Report Number DA-AR-02-007, dated September 10,
                                   2002), we noted that the Postal Service did not fully
                                   document contract negotiations, which resulted in
                                   uncertainty as to whether the contractual relationship
                                   protected the Postal Service’s interest. Management
                                   agreed and stated that they planned to propose to the
                                   Purchasing policy committee that additional coverage for
                                   required contract file documentation be included as policy
                                   by the end of FY 2003. Management’s actions taken or
                                   planned were responsive and should correct the issues
                                   identified in the report.




6
 Based on the unsolicited proposal’s estimated $30 million annual medical cost savings to the Postal Service and the
mathematical application of the initial rates paid to the contractor, the second modification effectively reduced the
Postal Service’s estimated share from $30 million to $18 million annually.



                                                         3
                                              Restricted Information
Postal Service’s Arrangement with a                                                    HK-AR-03-001
 Preferred Provider Organization


                                             AUDIT RESULTS
Contracting Practices               The contract provides the Postal Service with a unique
                                    opportunity to reduce its annual medical costs from fee
                                    schedule savings that could only be achieved through
                                    discounted network fee schedule providers. Postal Service
                                    management recognized the potential value provided by the
                                    unique contractual relationship with the contractor.
                                    However, our audit revealed that the Postal Service did not
                                    use appropriate contracting practices in this contract with
                                    the contractor. Specifically, the former contracting officer
                                    did not document the use of noncompetitive award and
                                    ultimately awarded the contract with provisions that were
                                    unfavorable to the Postal Service. Further, the contract
                                    lacked:

                                         •   Negotiation documentation.
                                         •   Documentation of cost and pricing data.
                                         •   Postal Service standard contract clauses and other
                                             provisions.

                                    As a result, the contract as awarded exposed the Postal
                                    Service to risks from legal claims, protests, equitable
                                    adjustments, and contract termination. Additionally, the
                                    former contracting officer did not timely deobligate
                                    $75,000 representing contract funds for services not used.

Documentation of                    The former contracting officer did not document the use of
Noncompetitive Award                a noncompetitive award that resulted from an unsolicited
                                    proposal. In accordance with the Purchasing Manual,
                                    Issue 1, Section 3.5.4.d, pertaining to “Unsolicited
                                    Proposals,”7 and in accordance with the Purchasing
                                    Manual, Issue 1, Section 3.5.5.d, pertaining to
                                    “Noncompetitive Purchases,” all requests for noncompetitive
                                    purchases must be justified by the requesting organization
                                    and reviewed by a contracting officer with delegated
                                    authority. After reviewing the contract files and interviewing
                                    the present contracting officer, we determined that the
                                    contract file did not include an approved justification for
                                    noncompetitive purchase for the contract with the
                                    contractor.



7
    Unchanged in Purchasing Manual, Issue 2, dated January 31, 2002.



                                                          4
                                               Restricted Information
Postal Service’s Arrangement with a                                                                    HK-AR-03-001
 Preferred Provider Organization



                                    The contract file contained a draft noncompetitive
                                    justification that was never approved by the contracting
                                    officer. The draft contained language that stated, in part,
                                    “the contractor was the only source available, was the
                                    largest medical service provider network in the country, and
                                    would allow program analysis on a Postal Service-wide
                                    basis.” It also stated, “no benefit would be served in
                                    attempting to solicit competitive bids, since no other medical
                                    service provider is currently available which meets the
                                    Postal Service requirements.” We found no documentation
                                    to support the statements made in the draft noncompetitive
                                    justification. Purchasing Manual, Issue 2, issued
                                    subsequent to this contract, makes a significant change that
                                    could have prevented this situation from occurring. Under
                                    Purchasing Manual, Issue 2, dated January 31, 2002,
                                    Section 2.1.6.c.4., the vice president, Supply Management,
                                    must review and approve all noncompetitive purchases
                                    valued at more than $10 million.8

                                    In contrast to the statements made in the noncompetitive
                                    justification, the OIG learned that other contractors in the
                                    medical service provider community could provide the same
                                    or similar services. To minimize risk, it is extremely
                                    important to have documentation that provides support in
                                    case a contractor files a protest or claim against the Postal
                                    Service. However, the former contracting officer’s actions
                                    left the Postal Service vulnerable to claims by the contractor
                                    and possible protests by outside contractors because
                                    required documentation to support the noncompetitive
                                    contract award was not in the contract file.

Unfavorable Provisions             The former contracting officer agreed to a contract
                                   containing provisions unfavorable to the Postal Service.
                                   The Postal Service entered into a contract with the
                                   contractor that provides exclusivity and does not allow the
                                   Postal Service an opportunity to enter into any other
                                   contract arrangement with other contractors. In the
                                   contract, Supplement B, Article 2, Duties of the United
                                   States Postal Service (USPS), Section 2.1 states “USPS
                                   exclusively offer access to the Network to its Claimants
                                   within the Geographic Areas set out in Appendix II of the

8
 Although the Postal Service only obligated $75,000 for this contract, the value of the anticipated savings exceeded
$10 million.



                                                          5
                                               Restricted Information
Postal Service’s Arrangement with a                                                                      HK-AR-03-001
 Preferred Provider Organization


                                    contract. USPS will not enter into any agreement with any
                                    other providers, medical networks or other entity, directly or
                                    indirectly, to provide Medical Services to its Claimants.”
                                    Therefore, for the entire contract period ending February 28,
                                    2003, the Postal Service could not enter into a contract for
                                    similar services with any other medical service provider.
                                    The former contracting officer did not document any
                                    rationale for such a restrictive contract provision, and during
                                    the audit, we found no evidence to support the need for
                                    such a provision.

Negotiation                         The former contracting officer did not document contract
Documentation                       negotiations. We found no evidence that the contract was
                                    negotiated. The former contracting officer should have, in
                                    coordination with their representative, technical advisors,
                                    and cost or pricing specialists, developed a pre-negotiation
                                    objective. However, no evidence exists to document that
                                    such actions occurred. After negotiations were held
                                    between the former contracting officer and the contractor,
                                    the former contracting officer should have prepared a
                                    negotiation memorandum documenting the outcome that
                                    would have established the rationale for a best value
                                    determination. The negotiations should have addressed the
                                    purpose, scope, period of performance, the approach and
                                    deliverables, the schedule, standards, assumptions, price
                                    proposals, and any possible problems the contractor or the
                                    Postal Service may have.

                                    As of this audit, the Postal Service does not have guidance
                                    to ensure that contracting officers’ adhere to documenting
                                    contract negotiations. In a previous OIG report,9 we noted
                                    that contract files must contain enough documentation to
                                    permit an outside party to review and understand the
                                    decisions made with respect to the major events of the
                                    purchase. In particular, each contract file should clearly
                                    demonstrate the fairness and reasonableness of the price
                                    paid and the business rationale for selecting the vendor.
                                    Without a negotiation memorandum, it is unclear whether
                                    the Postal Service accepted the best contractual value.
                                    Also, the Postal Service may not be able to legally support a
                                    contracting officer’s decision if the contractor submits a

9
  Confirm (Report Number DA-AR-02-007, dated September 10, 2002), Postal Service management stated that
Administrative Instruction, HP-1-010, subject “Purchase Files,” is no longer in existence and that the Purchasing
policy committee plans to draft new language, to include appropriate policy on contract file documentation, in lieu of
the above administrative instruction.



                                                          6
                                               Restricted Information
Postal Service’s Arrangement with a                                                                      HK-AR-03-001
 Preferred Provider Organization


                                    claim, requests equitable adjustment, or if a termination
                                    becomes necessary.

Documentation of Cost               The contract lacked cost and pricing data; therefore, the
and Pricing Data                    OIG could not determine if this contract represented the
                                    best value for the Postal Service. The former contracting
                                    officer did not follow the Purchasing Manual’s guidance10
                                    with regard to obtaining cost and pricing data. As a result,
                                    the contractor was allowed a percentage of the medical
                                    cost savings as payment for their contracting services
                                    without a valid cost analysis. The percentage of the medical
                                    cost savings allowed the contractor was 32.7 percent and
                                    30.9 percent for different timeframes throughout the
                                    contract term. A second modification11 to the contract
                                    changed the contractors’ percentage of medical cost
                                    savings to 60 percent and made it effective from contract
                                    inception. The second contract action signed on
                                    June 27, 2002, was the former contracting officer’s last
                                    official act on this contract. She left the Postal Service on
                                    June 27, 2002.

                                    The OIG is concerned that the contracting officer did not do
                                    the required research before changing the percentage of
                                    medical cost savings to a higher percentage for the
                                    contractor. In addition to the higher percentage of medical
                                    cost savings for the contractor, the retroactive change of
                                    percentage to the start of the contract was also a concern to
                                    the OIG. Without cost and pricing data, the OIG could not
                                    determine whether the modified rates reflect costs that were
                                    considered fair and reasonable for the Postal Service.

Postal Service Standard             We found that the former contracting officer did not use
Clauses and Other                   standard Postal Service clauses and other contract
Contract Provisions                 provisions. The Purchasing Manual requires the contracting
                                    officer to include standard contact clauses in the contract in
                                    order to protect its interest in the event of legal action or to
                                    provide an audit trail.
10
   In Purchasing Manual, Issue 1, Section 5.1.2.c, Cost Analysis, states that ”cost analysis is the process of examining
the separate elements of cost and profit in an offeror’s or supplier’s cost or pricing data, to form an opinion about the
degree to which they represent what the contract should cost. It is normally done only when there is not adequate
price competition and no method of price analysis will ensure that prices are fair and reasonable and will protect the
Postal Service’s interest.”
11
   Based on the unsolicited proposal’s estimated annual medical cost savings of $30 million to the Postal Service, the
second modification effectively reduced the Postal Service’s estimated share from $30 million to $18 million annually.
However, the actual impact of the second contract modification will be determined during another phase of our audit
of the Postal Service’s arrangement with the contractor. In that audit and a subsequent audit report, we will
determine whether the Postal Service achieved cost savings from reducing amounts paid on medical claims.



                                                           7
                                                Restricted Information
Postal Service’s Arrangement with a                                                                      HK-AR-03-001
 Preferred Provider Organization



                                    For instance, the termination provisions of the Purchasing
                                    Manual12 provide standard language and protection for the
                                    Postal Service’s interest if the contract were terminated.
                                    Those clauses are very specific and do not restrict either the
                                    Postal Service or the contractor. The contract includes a
                                    clause that is restrictive13 and does not adequately protect
                                    the Postal Service in the event of an actual termination.

                                    Further, the indemnification clause as stated in the
                                    Purchasing Manual14 protects the Postal Service’s interest.
                                    In the contract, the contractor states that the Postal
                                    Services agrees to indemnify and hold harmless and
                                    reimburse the supplier to the extent of any such costs or
                                    liabilities arising out of their defense of any claim that does
                                    not result from any negligence or intentional action or
                                    misconduct of the supplier. The clause, as presented in the
                                    contract, does not provide the Postal Service with the
                                    protection it needs in case a claim is submitted; instead, the
                                    clause protects the contractor.

                                    Also, an examination of the records clause as stated in the
                                    Purchasing Manual shows “that the Postal Service and its
                                    authorized representatives will, until three years after final
                                    payment under this contract, or for any shorter period
                                    specified for particular records, have access to and the right
                                    to examine any directly pertinent books, documents, papers,
                                    or other records of the supplier involving transactions
                                    related to this contract.”

                                    Instead, the contract states that the Postal Service:

                                         •    May examine the suppliers’ records with not less
                                              than 30 days advance notice.


12
   Clause B-12 “Termination for Convenience and Termination for Default.”
13
   Article 5, “Term and Termination,” Section 5.2.3, states, “If USPS exercises its termination right under this
Section 5.2.3, USPS will: 1) not use any other entity to provide managed care services similar to those provided by
Supplier to its Claimants before March 1, 2003.”
14
   Clause B-39 “Indemnification” states “the supplier must save harmless and indemnify the Postal Service and its
officers, agents, representatives, and employees from all claims, losses, damage, actions, causes of action,
expenses, and/or liability resulting from, brought for, or on account of any personal injury or property damage
received or sustained by any person, persons or property growing out of, occurring, or attributable to any work
performed under or related to this contract, resulting in whole or in part from negligent acts or omissions of the
supplier, any subcontractor, or any employee, agent, or representative of the supplier or any subcontractor.” We
found no reference in the Purchasing Manual that limits the use of this clause to a particular type of contract and in
our view; an indemnification clause would be appropriate for this contract.



                                                           8
                                                Restricted Information
Postal Service’s Arrangement with a                                                   HK-AR-03-001
 Preferred Provider Organization


                                      •   Will continue to provide such right of examination for
                                          a period of not less than 2 years after the date of
                                          discharge, end of the treatment, or the end of
                                          suppliers services in relation to the specific episode
                                          of care.

                               As a result, if the Postal Service should find it necessary to
                               do an audit of the contractor’s records 3 years after the
                               contractor has received final payment, the contract has
                               bound the Postal Service and it will not allow such an audit
                               to take place. In addition, the Postal Service is restricted to
                               examining the records within not less than 30 days from
                               such notice.

                               Without the above indemnification and record examination
                               clauses, the Postal Service may not be able to protect its
                               interest in the event that the contractor or any other outside
                               entity submits a claim, equitable adjustment, protest, or
                               lawsuit, or if the contract requires termination.

Contract Funds                 The former contracting officer did not timely deobligate
                               contract funds. Specifically, the former contracting officer
                               did not monitor a contract action for which $75,000 had
                               been obligated. Upon contract award on March 1, 2001,
                               $75,000 in funds had been obligated for contract services
                               that were never executed, and the funds should have been
                               deobligated at the end of FY 2001. As of the end of
                               FY 2001, the former contracting officer executed no such
                               action. As a result of our audit, we asked the present
                               contracting officer to take actions to deobligate the funds
                               and on January 7, 2003; the present contracting officer
                               deobligated $75,000 in funds for contract services that were
                               never used. As a result of the OIG audit, the current
                               contracting officer has thoroughly reviewed the contract and
                               initiated additional corrective actions.

Recommendation                 We recommend for future actions on this contract the senior
                               vice president, Human Resources:

                                1. Require that all noncompetitive purchase requests be
                                   developed and have prior written approvals before
                                   submission to Supply Management.




                                                      9
                                           Restricted Information
Postal Service’s Arrangement with a                                                  HK-AR-03-001
 Preferred Provider Organization



Management’s                   Management indicated agreement with the recommendation
Comments                       and stated that future noncompetitive requests will be
                               developed and have prior written approval before
                               submission to Supply Management.

Recommendation                 We recommend for future actions on this contract the vice
                               president, Supply Management:

                                2. Direct the contracting officer to continue efforts to
                                   develop important contract documentation, to include:

                                      • Justification for noncompetitive purchase.
                                      • Negotiation documentation.
                                      • Cost analysis.

Management’s                   Management agreed with the recommendation and stated
Comments                       that the contracting officer will include appropriate
                               documentation in the contract file for future actions related
                               to this contract.

Recommendation                  3. Require that all noncompetitive purchase requests have
                                   prior written approvals before any processing is
                                   executed in Supply Management. In addition, require
                                   that all noncompetitive purchase requests be processed
                                   for final approval at the appropriate levels within Supply
                                   Management.

Management’s                   Management agreed with the recommendation and stated
Comments                       that the contracting officer will follow Purchasing Manual,
                               Issue 2, requirements for processing and documenting any
                               future noncompetitive actions related to this contract.

Evaluation of                  Management’s comments are responsive to
Management’s                   recommendations 1, 2, and 3. Management’s actions taken
Comments                       or planned should correct the issues identified in the report.

Recommendation                 4. Direct the contracting officer to negotiate with the
                                  contractor a modification to eliminate unfavorable
                                  restrictions and include standard contract clauses as
                                  appropriate.




                                                    10
                                          Restricted Information
Postal Service’s Arrangement with a                                                 HK-AR-03-001
 Preferred Provider Organization



Management’s                   Management agreed with the intent of the recommendation
Comments                       and stated that negotiations with the contractor have been
                               completed, required Postal Service clauses were included,
                               and the unfavorable provisions were removed.

Evaluation of                  The insertion of required Postal Service clauses and the
Management’s                   removal of the unfavorable provisions were responsive to
Comments                       our recommendation. Management’s actions taken or
                               planned should correct the issues identified in the report.

Recommendation                 We recommend for future actions on this contract the
                               vice president, Supply Management:

                               5. Direct the contracting officer to renegotiate the contract
                                  to increase the Postal Service’s percentage of medical
                                  cost savings and document the negotiated rates using
                                  adequate cost and pricing data.

Management’s                   Management agreed with the intent of the recommendation
Comments                       and stated that the contracting officer will always strive to
                               achieve the best value for the Postal Service. However, in
                               this particular effort, the contracting officer’s efforts may or
                               may not result in an increase to the Postal Service’s savings
                               percentage, as the share ratio must be fair and reasonable
                               to both parties. Discussions in this matter will be based on
                               price and/or cost data; the discussions will be documented;
                               and discussions will be completed prior to the end of Postal
                               Service quarter 3.

Evaluation of                  Management’s comments are responsive to the
Management’s                   recommendation. Management’s actions taken or planned
Comments                       should correct the issues identified in the report.




                                                 11
                                       Restricted Information
Postal Service’s Arrangement with a                            HK-AR-03-001
 Preferred Provider Organization


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                12
                                      Restricted Information
Postal Service’s Arrangement with a                            HK-AR-03-001
 Preferred Provider Organization




                                                13
                                      Restricted Information
Postal Service’s Arrangement with a                            HK-AR-03-001
 Preferred Provider Organization




                                                14
                                      Restricted Information
Postal Service’s Arrangement with a                            HK-AR-03-001
 Preferred Provider Organization




                                                15
                                      Restricted Information
Postal Service’s Arrangement with a                            HK-AR-03-001
 Preferred Provider Organization




                                                16
                                      Restricted Information
Postal Service’s Arrangement with a                            HK-AR-03-001
 Preferred Provider Organization




                                                17
                                      Restricted Information
